HHS/OIG-Audit--"Review of Pension Costs Claimed for Medicare Reimbursement by Blue Shield of California, (A-07-98-02523)"
Department of Health and Human Services
Office of Inspector General -- AUDIT
"Review of Pension Costs Claimed for Medicare Reimbursement by Blue Shield
of California," (A-07-98-02523)
April 1, 1999
Complete Text of Report is available in PDF format
(1.12 MB). Copies can also be obtained by contacting the Office of Public
Affairs at 202-619-1343.
EXECUTIVE SUMMARY:
This final audit report points out that Blue Shield of California, due to inappropriate
cost allocation methods, over claimed employees' pension costs for Medicare
reimbursement by $2.4 million over Fiscal Years 1991 through 1997. Blue Shield
of California has agreed to our recommendation that they refund the $2.4 million
to the Medicare program.